HHS/OIG, Audit - "Review of Refugee Medical Assistance Payments in
Florida for the Period July 1, 2002, Through June 30, 2005," (A-04-06-03509)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Refugee Medical
Assistance Payments in Florida for the Period July 1, 2002, Through June 30,
2005," (A-04-06-03509)
October 16, 2007
Complete
Text of Report is available in PDF format (850 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit
was to
determine whether the Florida Department of Children and Families (DCF) made
Refugee Medical Assistance (RMA) payments only on behalf of beneficiaries whose
eligibility periods had not expired.  We found that during the 3-year period
end June 30, 2005, DCF made payments totaling at least $226,028 on behalf of
beneficiaries whose eligibility periods had expired.  In addition, DCFs
computerized eligibility system contained missing or inaccurate dates of entry
or of asylum for some beneficiaries, allowing erroneous payments to occur.  As a
result, DCF made $58,510 in additional erroneous payments to 24 beneficiaries.
In addition to certain procedural recommendations, we
recommended that DCF make a financial adjustment of $226,028 for the RMA
payments made on behalf of ineligible beneficiaries and a financial adjustment
of $58,510 for 24 beneficiaries whose dates of entry or of asylum were not
documented in the case files.  DCF generally concurred with our
recommendations.  However, in its written comments, DCF did not address the
eligibility of the 24 beneficiaries whose dates of entry or of asylum were not
documented in the case files.  Therefore, we continued to recommend that DCF
repay $58,510 in overpayments applicable to these 24 beneficiaries.